Office of Inspector General



MEMORANDUM

TO:                  USADF President ang,.cEO, Lloyd O. Pierson

FROM:                AIG/A, Tim Cox /s/

SUBJECT:             Audit of the U.S. African Development Foundation's Financial Statements for
                     Fiscal Years 2011 and 2010 (Audit Report No. 0-ADF-12-003-C)

With this memorandum, the Office of Inspector General (OIG) transmits the audit report
prepared by the certified public accounting firm of Gardiner, Kamya & Associates, PC, on the
financial statements as of September 30, 2011 and 2010, of the U.S. African Development
Foundation (ADF). OIG contracted with this independent auditor to audit the financial
statements.

The independent auditor expressed an unqualified opinion on ADF's fiscal year 2011 financial
statements and notes. The report states that the financial statements presented fairly, in all
material respects, ADF's financial position, the net cost of operations, the changes in net
position, and budgetary resources for the years ended September 30, 2011 and 2010, in
conformity with accounting principles generally accepted in the United States of America.

The report contained one material weakness in ADF's internal control over financial reporting
and no instances of noncompliance with selected provisions of applicable laws and regulations.

We reviewed the audit report and found it to be in accordance with auditing standards generally
accepted in the United States; generally accepted government auditing standards issued by the
Comptroller General of the United States; and the Office of Management and Budget Bulletin
No. 07-04, "Audit Requirements for Federal Financial Statements", as amended.

In connection with our contract, we reviewed the independent auditor's related audit
documentation. Our review was different from an audit conducted in accordance with the
auditing standards discussed above and was not intended to enable us to express, and we do
not express, an opinion on ADF's financial statements. Also, we do not express conclusions on
the effectiveness of ADF's internal control or on ADF's compliance with other laws and
regulations.

The independent auditor was responsible for the attached auditor's report dated November 14,
2011, and the conclusions therein. Our review disclosed no instances where the independent
auditor did not comply, in all material respects, with the auditing standards discussed above.

U.s. Agency for International Development
1300 Pennsylvania Avenue, MAl
Washington, DC 20523
www.usaid.gov/oig
     Certified Public Accountants
     & Consultants                                                        1015 18th Street, NW
                                                                               Suite 200
                                                                         Washington, DC 20036
                                                                           Tel: 202-857-1777
                                                                           Fax: 202-857-1778
                                                                           www.gkacpa.com




United States African Development Foundation
PERFORMANCE AND ACCOUNTABILITY REPORT

                        Fiscal Year 2011




                               Member of the American Institute of Certified Public Accountants
THIS PAGE INTENTIONALLY LEFT BLANK
                                                   TABLE OF CONTENTS


Section I: Overview

   Message from the President .................................................................................................1
   Management’s Discussion and Analysis .............................................................................2
   Message from the CFO ......................................................................................................18

Section II: Independent Auditor’s Reports

   Independent Auditor’s Report on Financial Statements ....................................................19
   Independent Auditor’s Report on Internal Control over Financial Reporting...................21
   Independent Auditor’s Report on Compliance with Laws and Regulations......................23

   Exhibit 1
      Material Weakness.......................................................................................................25

Section III: Financial Statements and Notes

   Financial Statements:
      Balance Sheets .............................................................................................................29
      Statements of Net Cost.................................................................................................30
      Statements of Changes in Net Position........................................................................31
      Statements of Budgetary Resources.............................................................................32
      Notes to Financial Statements......................................................................................33
THIS PAGE INTENTIONALLY LEFT BLANK
SECTION I

OVERVIEW
THIS PAGE INTENTIONALLY LEFT BLANK
November 14, 2011
                            MESSAGE FROM THE PRESIDENT

I am pleased to submit the FY 2011 Performance and Accountability Report for the United
States African Development Foundation (USADF). USADF is committed to achieving the
highest levels of effective and efficient operations, full transparency and accountability in
financial reporting, and full compliance with applicable laws and regulations.
USADF has a unique development assistance mission in the Federal government. The
Foundation works directly with marginalized and under-served poor populations across Africa,
with a focus on long-term economic development. Local economic development is the key to
poverty alleviation; therefore a majority of USADF funding goes toward community-based
groups. A major component of USADF’s approach is directed toward helping to develop and
grow small and medium-sized enterprises in Africa that produce both economic gains and quality
of life improvements. These gains are measured in terms of more jobs, improved incomes, better
work conditions, and greater access to educational and health services.
USADF’s operating model is one of low overhead to maximize the amount of appropriated
dollars that provide direct economic development assistance to the most marginalized
populations in Africa. In FY 2011, the Foundation began a major outsourcing effort as a means
to lowering administrative costs. USADF has pledged to be a Federal agency model of openness
and transparency and continues to make program activities and results available on our web site.
Our vision is to help end the poverty of thousands of marginalized groups across Africa. Our
success is measured in lives improved, new economic opportunities created, and goodwill
established. Our mission is as applicable today, if not more so, than when USADF was founded
in 1980. We look forward to continued cooperation with Congress, U.S. Government agencies,
and friends and experts throughout the African development community.

Signed:

/s/
Lloyd O. Pierson
President and CEO
                        MANAGEMENT'S DISCUSSION AND ANALYSIS

United States African Development Foundation Mission and Organizational Structure


Purpose:       Fostering hope, growth, and goodwill in Africa.
Vision:        To end the poverty of a million Africans by investing in their ideas.
Mission:       To provide economic development assistance for marginalized populations in
               Africa. These populations generally are in conflict or post-conflict areas and the
               work of USADF is in the national interest of the United States.

The United States African Development Foundation (USADF or the Foundation), created in
1980, is an independent Federal agency established to support African-designed and African-
driven solutions that address grassroots economic and social problems. The Foundation is a
public corporation with a seven member Board of Directors who are nominated by the United
States President and confirmed by the U.S. Senate. They serve for a fixed term. The Board of
Directors selects and names the President and CEO of USADF.

The United States African Development Foundation provides grants of up to $250,000 to
indigenous African organizations that benefit under served and marginalized 1 groups. The
Foundation has a unique mission among U.S. foreign assistance programs, by-passing layers of
inefficiencies and working directly with the neediest communities in Africa. The
Foundation uses a participatory approach to actively engage marginalized local community
groups1 or enterprises in the design and implementation of development projects. This approach
ensures these programs are distinctively African initiated and led, resulting in outcomes that best
address the real needs of the community. Project success and long term impact is further
enhanced through USADF efforts to establish a network of local support and technical service
providers across Africa. Partner organizations are local non-governmental organizations that
provide project design, implementation and management support to USADF grant recipients.
Grant success is measured in terms of jobs created and sustained, increased income levels, and
improved social conditions.

Over the past 30 years, The United States African Development Foundation has established a
foreign assistance model that works. During this period, USADF has worked in more than 26
countries and has invested more than $250 million in African initiated and led development
projects. USADF projects are designed to improve economic and social conditions for some of
the poorest, most neglected communities in the world. Congressional appropriations,
administered by USADF, are tangible expressions of good will from people of the United States
to the people of Africa. Support for USADF programs provide an opportunity for economic
growth and social development in places where little other hope and assistance exist.




1Marginalized groups are people who have been disenfranchised from the political, economic and social fabric of the
broader society and who have significant needs that currently are not being addressed.
                                                          2
As of September 30, 2011 USADF had over 400 active project grants and small grants in 23
countries, representing more than $60 million invested in enterprises, farmer associations,
cooperatives, and community groups that improve food production, increase income levels, and
improve social benefits in poor communities.

The Staffing Table below shows the personnel required to support USADF operations across a
three year period. USADF further simplified organizational structures in 2011 to improve
operational efficiencies.

Staff Table
Professional Staffing Levels          End of FY 2009       End of FY 2010        End of FY 2011
Direct Federal Hires                       25                    25                   29
PSC - Washington                           13                     9                    7
PSC - Field                                23                    23                   17
         Total                             61                    57                   53



USADF Strategic Priorities

The following seven core principles serve as guidelines for all USADF management planning,
budgeting, and evaluation activities. These priorities help ensure that USADF stays true to its
authorizing legislation and mandate.

1. High effectiveness, low overhead: The efficient use of taxpayer funds is paramount in every
   decision made. While accomplishing tangible results is important, it is essential that USADF
   is accountable to use public monies in the most cost effective manner possible. Maintaining
   this priority moves USADF toward achieving the lowest overhead rate in the Federal
   government.

2. Focus on marginalized communities: USADF is the only United States Government agency
   with a specific mission to provide direct development assistance to the most marginalized,
   populations in Africa. These populations can be identified by geography, ethnicity, gender,
   age, or disability, and are often disenfranchised from the political, economic and social fabric
   of the broader society. Typically, USADF provides development grants to communities and
   groups living in the most difficult, challenging areas of sub-Saharan Africa and lacking
   access to traditional domestic or foreign development assistance.

3. Investing in Africans and their ideas: USADF takes participatory development principles
   seriously. The Foundation trusts Africans to understand the challenges they face and to
   know the best approaches to resolving them. USADF also ensures that grantees have access
   to assistance from African experts in the design and implementation of projects. This
   approach ensures that outcomes will best address real community needs. USADF’s
   development model empowers Africans in the decision-making and implementation process.

4. Addressing social development needs and ensuring lasting economic results: The majority
   of the USADF program portfolio is devoted to income generating projects that produce jobs,

                                                3
   better income levels, and tangible social benefits. Social benefits include skills training,
   nutritional and hygiene training, and basic vocational education. In cases where the right
   opportunities exist, USADF helps marginalized populations develop their capacity to join the
   global economy.

5. Encouraging and expanding African management: All USADF programs in Africa are
   managed by Africans. There are no expatriate offices and there is minimal use of outside
   consultants. When consultants are required most often African experts are selected. This
   approach helps make USADF fundamentally different from other development organizations.
   USADF values and has policies that ensure that Africans take leadership roles in developing,
   implementing, and managing foreign assistance.

6. Maintaining the highest level of openness and transparency in the U.S. Government: As an
   organization primarily dependent on U.S. taxpayer funds, management believes that an open
   and transparent organization is the best approach. The USADF website and other
   communication vehicles are continually updated to make it simple for people to know more
   about Africa, what USADF is doing, and exactly how program funds are being used.

7. Developing an equal opportunity, results driven staff team: that provides equal opportunities,
   and rewards hard work, dedication to the mission.

Supporting Administration Priorities in Marginalized Area

With more than one billion people in the world suffering from chronic hunger, the international
development community has made improving ‘food security’ a priority item. The global
community often defines the term food security as people having a reliable source of food and
sufficient resources to purchase food. From its inception USADF has focused the majority of its
grants on improving agricultural production and improving the income levels of marginalized
groups across Africa. USADF’s participatory development approach ensures that effective food
security solutions come from those closest to the problem.

The majority of USADF grants directly support improved agricultural productivity by providing
access to better inputs such as seed, feed, fertilizer, machinery, and irrigation systems. Most all
grants also provide access to improved farm knowledge, training in financial management, and
natural resource management.

In addition to improving the means of production, USADF grants also focus on helping
marginalized groups expand their market access. Higher incomes are achieved when groups gain
the abilities to take greater advantage of local, regional, and international markets. To achieve
this, USADF grants support improved means of transportation, better product storage, better
product distribution and marketing, and improved access to market information.




                                                4
The table shows where USADF grant funding economic development grants for marginalized
communities corresponds to other Administration foreign assistance initiatives:

                                                    *Active     Active Value
                                                    Projects       (USD)
                                     Benin            25                3,476,479
                                     Burkina Faso     28                3,202,999
                                     Burundi          17                2,133,454
                                     Guinea           5                   819,502
                                     Liberia          31                3,906,432
                                     Mali             13                2,400,184
                                     Mauritania       23                3,254,148
                                     Niger            16                3,501,728
                                     Rwanda           17                3,400,426
                                     Senegal          19                2,098,364
                                     Kenya            17                2,099,706
                                     Malawi           19                3,395,265
                                     Tanzania         26                4,734,827
                                     Uganda           30                5,361,782
                                     Zimbabwe         18                3,218,572
                                     Somalia          4                   959,667
                                     Botswana         16                2,360,225
                                     Cape Verde       22                3,616,487
                                     Ghana            8                 1,949,671
                                     Nigeria          38                5,130,434
                                     Swaziland        1                   237,534
                                     Zambia           29                4,091,335
                                           Total      422              65,349,221
                                     Small Grants     121                 959,534


*Bold Italics note   a Feed the Future Country



In FY 2011, USADF began a new food security and economic development program in the
Turkana region of Kenya and a focused jobs training program in three regions of Somalia. The
ability of USADF to move rapidly into post conflict zones, with due diligence, assured results
and impact, is a major comparative advantage for the Foundation and for the United States.




                                                            5
Performance Summary and Discussion

The summary charts below reflect several aspects of USADF improved performance in 2011.
USADF funded a record high number and value of grants in 2011, continuing a five year growth
trend. This growth was achieved while lowering administration costs over the same period.
These improvements included faster disbursement processing cycle times, better workload
distribution across the calendar year, and outsourcing initiatives.

Productivity Gains – Increased Programs and Decreased Operating Expenses




Organizational Improvements

The 2011 All Employee Survey revealed a remarkable improvement in USADF employee
attitudes about the management, operations, and mission of USADF. The chart below highlights
five different categories of the improved employee attitudes compared to earlier surveys and
with the overall Federal employee population. USADF scored among the highest of all Federal
Agencies and scores well about Federal averages in all categories.



                                             6
Program Results
The majority of USADF grants focus on economic development activities in agricultural
production and other food security related areas. The results of these projects help rural farmers
grow more food to feed their families and sell more of their products in commercial markets.
Increased revenues generate greater income that enables people to purchase other goods and
services such as food, education, healthcare, and housing. These basic outcomes significantly
improve the quality of life for individuals and communities. The following statement, based on
USADF’s most recent annual assessment of program performance indicators, provides an
overview of the positive impact USADF grants are having in marginalized communities across
Africa.

“The current portfolio of 400 project grants and 120 small grants benefits an estimated
900,000 people in marginalized communities by providing people with the opportunity to
engage in the development process and gain social and economic benefits from the more than
$265 million dollars of new economic activities generated over the extended grant period.”




                                                7
Analysis of Financial Statements

USADF is pleased to report that in FY 2011 the Foundation continued to receive an unqualified
opinion on all financial statements from its independent auditors, GKA, P.C. Since FY 2009,
USADF has received an unqualified opinion on the Balance Sheet, the Statement of Net Costs, the
Statement of Net Position, and the Statement of Budgetary Resources.

Assets

USADF’s Fund Balance with Treasury decreased, from $34.2 million at the end of FY 2010 to
$32.3 million at the end of FY 2011. The difference of $1.9 million is due to continued efforts to
improve the speed of grant disbursement processing.

Cash and Other Monetary Assets consist of foreign currency donations made by African
governments and private-sector entities with which USADF has established strategic
partnerships. The funds are held in bank accounts in each country where a strategic partnership
is in effect. These assets decreased significantly, from $9.2 million at the end of FY 2010 to $6.2
million at the end of FY 2011.

Liabilities and Net Position

Liabilities did change significantly from FY 2010 to FY 2011. USADF’s Net Position (the sum
of the Unexpended Appropriations and Cumulative Results of Operations) at the end of 2011 as
shown on the Balance Sheet and the Statement of Changes in Net Position was $41.8 million, a
$3.6 million decrease from the previous fiscal year’s balance of $45.4. This decrease is explained
in the subsequent section regarding the Fund Balance with Treasury.                  Unexpended
Appropriations of $35.1 million represents funds appropriated by the Congress for use over
multiple years that were not expended by the end of FY 2011. Cumulative Results of Operations
of $6.7 million consists primarily of funds donated by strategic partners that were not expended
by the end of FY 2011.

Net Cost of Operations

The Net Cost of Operations is defined as the gross (i.e., total) cost incurred by the Agency, less
any exchange (i.e., earned) revenue. Program costs assigned to program activities, such as grants
and cooperative agreements, decreased from $24.6 million in FY 2010 to $23.1 million in FY
2011, due primarily to a decrease in overall funding. Costs not assigned to programs, such as
office expenses, staff salaries, and other administrative costs, decreased from $9.6 million in FY
2010 to $9.3 million in FY 2011 as a result of the priority set by USADF management to move
toward achieving the lowest overhead rate in the Federal government.

Forty-five percent of USADF’s non-program expenses are related to payroll. Thirty-seven
percent relates to rent, travel, supplies, publications, training, contractual services, and
information technology; the remaining 18 percent relates to the on-the-ground presence that
USADF maintains in African countries with the field coordinator offices.


                                                8
Budgetary Resources

USADF’s budgetary resources consist of its annual appropriations from Congress, which are
available for two years, and donations from strategic partners. USADF’s FY 2010 appropriations
were $30.0 million; its FY 2011 appropriations are $29.4 million. USADF received $207
thousand in donations from strategic partners, representing a decrease of $4.4 million from the
$4.6 million received in FY 2010.

Unobligated Balances decreased from $11.5 million at the end of FY 2010 to $10.5 million at the
end of FY 2011. The Obligations Incurred line decreased from $35.4 million in FY 2010 to
$30.1 million in FY 2011. The decrease of $5.3 million is due to multiple factors among which
are foreign currency adjustments, an across-the-board cut of appropriations, a substantial drop in
the collection of donated funds from Strategic Partners and the reduction of costs associated with
administration and grant programming.




                                                9
USADF Internal Controls, and Legal Compliance

Management Assurance Statements

General FMFIA Assurance Statement

The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the
statutory basis for management’s responsibility for and assessment of accounting and
administrative internal controls. Such controls include program, operational, and administrative
areas, as well as accounting and financial management. The Integrity Act requires federal
agencies to establish controls that reasonably ensure obligations and costs are in compliance with
applicable law; funds, property, and other assets are safeguarded against waste, loss, unauthorized
use, or misappropriation; and revenues and expenditures are properly recorded and accounted for
to maintain accountability over the assets.

It is my informed judgment, as the head of the United States African Development Foundation
that I provide a qualified statement of assurance.
/s/
Lloyd O. Pierson, President


Internal Control over Financial Reporting Assurance Statement

The United States African Development Foundation’s management is responsible for establishing
and maintaining effective internal control over financial reporting, which includes safeguarding of
assets and compliance with applicable laws and regulations. USADF assesses the effectiveness of
USADF's internal control over financial reporting and is working toward full compliance with
OMB Circular A-123, Management’s Responsibility for Internal Control. USADF is already
addressing the one material internal control finding and outsourcing to Administrative Resource
Center of the Bureau of Public Debt (ARC/BPD) should facilitate a timely corrective action. With
the exception of the finding referenced above, USADF can provide reasonable assurance that
internal control over financial reporting as of September 30, 2011 is operating effectively and that
no other material weaknesses have been found in the design or operation of the internal controls
over financial reporting.
/s/
Lloyd O. Pierson, President
---------------------------------------------------------------------------------------------------------------------

Annual Assurance Statement on Financial Management System

The United States African Development Foundation has been using Oracle Federal Financial
System hosted by National Business Center (NBC) under Department of Interior since FY 2004.
Based on the results provided in the FY 2011 SSAE 16 Report on Oracle Federal Financial
System, I am able to provide a reasonable assurance that the USADF’s Financial Management
Systems conforms to government-wide requirements mandated by the FFMIA and OMB
Circular No. A-127, Financial Management Systems, section 7.
/s/
Lloyd O. Pierson, President
                                                         10
OMB Circular A-123 Compliance Improvements

In 2011, management strengthened its internal control environment by formalizing annual
internal control assessment process. This enhanced approach was established as an institutional
practice to increase confidence in the level and quality of Management’s Annual Statements of
Assurance on internal controls. The adoption of a continuous improvement internal control
process will include:

(1) A regular review of the organizational culture and structure: areas of authority and
    responsibility and delegations, reporting hierarchies, human capital policies, expectations of
    integrity and ethical patterns of behavior.
(2) A risk assessment of internal and external factors and previous findings.
(3) Assessment of policies, procedures, mechanisms, segregations of duties, physical controls on
    assets, authorizations processes, documentation and access to documentation, including those
    related to information systems, and mechanisms of communication of information internally
    and externally.
(4) Monitoring the effectiveness of these processes as a normal course of business, including:
    identification and reporting of deficiencies and consideration and, where appropriate,
    planning and implementing corrective action.
A directive issued by the President on November 3, 2009 formally outlined the steps and
timeframes associated with the formal implementation of USADF’s enhanced internal control
assurance process. As a result, an Internal Control Assessment Committee (ICAC) was
established and has completed a risk assessment matrix on USADF major business processes.
Based on that assessment the ICAC conducted a business evaluation and has a draft report and
recommendations approved by the President.

Internal Audit Function

Prior to the IG audit activities, USADF management moved to establish and strengthen an
independent internal audit capability that reports directly to the USADF President and the Board of
Directors. The internal audit function will focus its efforts on assessing compliance with USADF
financial policy and practices at the Country Coordinator Offices, USADF Partner Organizations,
and the USADF project grantees. Each assessment will be followed by an Internal Audit Report and
follow-up project plan.

In 2011 the USADF Internal Audit unit made significant progress in implementing a systematic plan
and approach to review the financial management and accounting for USADF funds provided to
project grants, partner grants, and country coordinator offices.


                 Financial Audits in FY2011     Scheduled         Performed
                 Projects Grants                      54                54
                 Partner Grants                       19                17
                 Coordinator Offices                   6                6




                                                11
Integrated Contracting and Financial Management Practices


In FY 2011, USADF outsourced financial management, contracting, and travel management
functions to the Bureau of Public Debt’s Administrative Resource Center. This will provided for an
integrated Contracting / Financial Accounting capability to improve the contracting process through
online records management, improvements to process controls and reporting, greater standardization
of policy, and increased assurances of compliance with the Federal Acquisition regulations. USADF
also expanded its inter agency agreement with the National Business Center to take on expanded
Human Resource management functions.

Grant Monitoring

Closely tracking the progress of grant implementation plans and budgets is an important aspect
that can help increase the likelihood that a grant will result in a successful outcome. Monitoring
can identify early problems and ensure that additional support is applied. Recent updates to the
monitoring roles of the Country Coordinator and Regional Director ensure Partners are providing
the technical support to Grantees consistent with the terms of their cooperative agreement.
Monitoring includes regular reviews of Grantees’ quarterly reports, and periodic sites visits to
Grantees by Partner Organizations, and by USADF staff. Each project grant with a value greater
than $100,000 receives an independent financial audit on the use of USADF grant funds. At the
end of a grant period, a Grant Close-Out procedure is completed for each grant. The close out
process includes a final accounting of grant funds, an assessment of the grant’s outcomes, and a
determination about the sustainability of the project.

Additionally, Regional Directors conduct bi-annual portfolio performance reviews with their
country teams to monitor and assess project performance within their respective regions. USADF
management also conducts bi-annual program reviews with Regional Directors to ensure there is
a clear line of accountability for the overall effectiveness of grant programs. Based on the
review, grants are given a performance grade using a common grading and assessment process.
Grants with lower grades (C – F) are given special attention from Partner Organizations to help
remediate the project difficulties. As a last resort grants with failing grades may be terminated.
The most recent assessment was conducted on November 3, 2011.

Grant Evaluation

In late FY 2009, the new monitoring and evaluation unit at USADF commissioned POSDEV, an
independent, African NGO based in Ghana to conduct an extensive program and grant evaluation
across 15 countries in Africa.

The Program evaluation has the following three components:

   1) Standardized survey of all USADF-funded clients with active projects underway for at least
      two years and projects that expired within the past 3 years.
   2) In-depth evaluation of a random sample of 40 percent of the projects included in the client
      survey. The in-depth evaluations will be based on field visits and open-ended interviews
      with clients, partner organizations, country program coordinators, USADF staff, and other
      stakeholders; and,
                                                12
   3) Standardized sample surveys of workers and farmers or other primary raw material suppliers
      for the projects included in the in-depth evaluations.

   Some Key Findings of the Client Surveys:

           Item                                                             Median Score
           Project idea originated from the Grantee                           96%
           Country representative office rated professional or better         96%
           Other technical assistance and training in implementation very
           useful or better                                                   94%
           USADF-required training on financial management and reporting
           very useful or better                                              93%
           Project development and review process good or better              90%

   Most Frequently Mentioned Grantee Recommendations:

   Project Design and Review

      The quality of USADF support for technology selection and procurement needs to be
       improved.
      Partner Organization staff and consultants should work more closely with the clients in a
       more genuinely participatory manner.
      The quality of market assessment and marketing support needs to be improved.

       Project Implementation

      Reduce disbursement delays and roadblocks.
      Training and technical assistance need to be more closely tailored to the actual needs of
       the clients instead of providing the same standardized training to all Grantees when that
       may be unnecessary or inappropriate.
      Partner Organizations should visit Grantees more frequently for monitoring,
       troubleshooting, and support.

Improper Payments Elimination and Recovery Act (IPERA) Reporting Detail

The Improper Payments Elimination and Recovery Act of 2010 (IPERA) requires agencies to
review their programs and activities increasing efforts to recapture Improper payments by
intensifying and expanding payment recapture audits. All agencies are required to develop a
method of reviewing all programs to identify those that are susceptible to significant erroneous
payments. “Significant” means that an estimated error rate and a dollar amount exceed the
threshold of 2.5 percent of programs outlays and $10 million of total program or activity
payments made during the fiscal year reported or $100,000,000 regardless of the improper
payment percentage of total program outlays.

During FY 2011, USADF reports no improper payments.

Limitations of Financial Statements
USADF's principal financial statements have been prepared to report the financial position and

                                                   13
results of operations, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements
have been prepared from books and records in accordance with generally accepted accounting
principles (GAAP) for federal entities and the formats prescribed by the Office of Management and
Budget, the statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                                 14
 ANNUAL PERFORMANCE INFORMATION

 Program Achievements
 It should be noted that USADF achieved several significant steps forward in 2011 programs.
 Working from a base budget of $29.4 million, dealing with several continuing resolutions (CRs),
 and undertaking a major outsourcing effort USADF was able to provide over $20.1 million of
 quality grants and technical resources to improve lives and income levels to many of the most
 marginalized and underserved communities in Africa. At the same time, process times for
 critical grant activities have been reduced by more than 50%. Quality control and monitoring and
 evaluation are a critical priority for all program outputs and activities.

 In 2011, USADF used over $2.5 million of African host government strategic partner matching
 funds to stretch U.S. tax dollars further in reaching under-served communities.

 Management has established seven operational priorities to ensure that USADF is effectively
 meeting its obligations to the United States taxpayer and making a positive impact in Africa.
 The majority of these focus on USADF programming activities and achieving greater cost
 effectiveness in operations in order to increase the amount of appropriated dollars going directly
 to poor communities in Africa.

  2009 - 2011 Operational Priorities
  1. Model high effectiveness and low overhead operations.
  2. Focus program activities on marginalized communities in Africa.
  3. Invest in Africans and their ideas through participatory development.
  4. Ensure projects produce long term social and economic results.
  5. Promote African led and managed field project support.
  6. Achieve the highest levels of openness and transparency in the U.S. government
  7. Support and develop an equal opportunity, results-driven staff team that rewards hard work,
     dedication to the mission, and personal success.

 Three simple performance measures help ensure USADF is maximizing the use of funds for
 development grants in Africa, is efficiently moving funds to Africa with minimum delays and is
 consistently moving toward lower overhead levels. The table below shows USADF
 achievements for 2007 through 2011. In 2011 USADF reached its highest year of grant funding
 in its 30 year history.

 Comparative Performance Table:
                         FY 2007           FY 2008            FY 2009            FY 2010                           FY 2011
Measure                Achievement      Achievement        Achievement         Achievement      FY2011Target     Achievement
Development Grant
                          $15 million       $18 million       $25 million         $22 million      $27 million     $26 million
Funding Levels1
       st
Grant 1
Disbursement             214 days         146 days            78 days            57 days          45 days          53 days
Timing
Operating Expense
                           46%               36%                35%                34%             <34%             28%
Ratio2
 1
   Cooperative Agreement Grants and Project Grants including use of Strategic Partner Funds
 2
   Operating Expenses / Current Year Appropriations



                                                               15
Development and Partner Cooperative Agreement grant funding levels increased significantly
from $22 million in 2010 to $26 million in 2011. The target of $27 million in grant funding was
missed primarily due to the non-receipt of strategic partner matching funds from Nigeria and
Malawi.

USADF continues to make progress in improving disbursement times. Disbursement timing
represents the number of days between the date a legal grant agreement was established and the
date funds were released for use by the grantee. In FY 2011, USADF continued to improve
disbursement cycle time for both first and second disbursements.

Operating Expense levels have declined by more than 20% over a five year period while
increasing program activities as reflected in the improved OE ratios shown above. In FY 2011,
management took further actions to reduce costs by outsourcing core administrative functions.
This puts ADF in a better position for lower appropriations in FY 2012 as well as on a stable
track to scale up program activities as additional operating funds become available.

Program Monitoring and Evaluations

Each project grant funded by USADF includes specific set of goals and objectives, and a line
item budget as a part of the standard grant agreement. For active grants, these documents may
be viewed online at the USADF website. Progress toward achievement of these goals and an
accounting of the use of grant funds is monitored on a quarterly basis through a grantee report.
The grantee quarterly reports are reviewed by Partner Organizations, Country Coordinators, and
USADF Washington staff to closely track and assess the grantee’s progress and performance.
The grant agreements and quarterly reports are on file with USADF and may be provided upon
request. Partner Organizations, USADF Country Coordinators, and USADF Washington staff
(including the President and Board of Directors) also conduct regular monitoring site visits to
each USADF grantee, and summarize their findings in site visit reports. Timeframes for
USADF grants range from two to five years in duration. At the end of a grant period, the Partner
Organizations and USADF staffs complete a grant close-out process that includes a full
accounting for the use of grant funds, and an assessment of the project’s outcomes and its
sustainability.

Each partner organization funded by a cooperative grant agreement provides USADF with a
monthly report that includes both project and financial management information used by USADF
to assess the performance of the grantee. A new partner performance and assessment model was
developed in FY 2009 and implemented FY 2011.

Other Program Performance Indicators


A detailed set of USADF performance indicators is displayed in the table below. Performance
indicators in FY 2009 showed some declines due to the shifting nature of USADF grant portfolio
from a small and medium sized business focus to marginalized populations in Africa. The
“investment multiplier” decreased from 6.3 in FY 2008 to 3.7 in FY 2009. This indicator tracks
how much sales revenues increased for each USADF dollar provided to that enterprise. Three
measures increased in 2009: export growth, the number of direct beneficiaries, and wages paid.
Although considerable time and effort is needed to develop sustainable economic growth in
                                              16
marginalized communities, USADF grantees prove they can productively use USADF funds to
increase revenues and expand operations.


Key Performance Indicators FY 2009


(FY 2010 Indicators are still being finalized at the time of this report. We expect the final report to be
completed by the end of January, 2012)
              Indicator                FY 06 Actual        FY07 Actual       FY08 Actual        FY09 Actual
Cumulative Revenue Growth, active
and recently expired (USD                 $43,288            $63,044           $112,355           $106,498
thousands)
Investment Multiplier, active and
                                            2.0                3.8                6.3                3.7
recently expired
Cumulative Export Revenue Growth,
active and recently expired (USD            ND               $4,970             $18,038            $21,600
thousands)
Net Income Before Income Taxes and
Depreciation, active (USD                 $3,106             $11,952            $17,364            $15,530
thousands)
Profitability, active                     44.0%              71.0%              68.7%               73%
Owners, Full-Time Workers, and
Principal Raw Material Suppliers or       46,553             44,464             106,814            129,400
Farms, active
Salaries, wages, and bonuses paid by
                                            ND                 ND               $5,640             $6,642
grantees, active (USD 000)
Sustainability, expired                    62%                84%                79%                70%




                                                      17
November 14, 2011



               UNITED STATES AFRICAN DEVELOPMENT FOUNDATION
                           MESSAGE FROM THE CFO



I am pleased to present the Fiscal Year 2011 comparative Financial Statements for the United
States African Development Foundation (USADF). The financial statements and performance
results data are complete and reliable and are in accordance with OMB requirements. They are
also in conformity with generally accepted accounting principles.

The USADF’s administrative and fiscal accounting systems for the year ended September 30,
2011 fully comply with the requirements of the Federal Financial Management Improvement Act
(FFMIA). USADF is in substantial compliance with the requirements of the Federal Managers’
Financial Integrity Act of 1982 (FMFIA).

In 2011, USADF initiated business process changes and cost efficiencies to provide for a fully
integrated financial system for October 2012 obtaining support via an Inter-Agency Agreement
(IAA) with ARC/BPD. This action along with additional training will enable ADF employees to
perform their jobs more efficiently and will provide for a more effective financial system and
processes, including resolution of the material weakness regarding internal controls in Financial
Reporting noted by the auditor.



/s/
William E. Schuerch
Chief Financial Officer




                                               18
          SECTION II

INDEPENDENT AUDITOR’S REPORTS
THIS PAGE INTENTIONALLY LEFT BLANK
                  Certified Public Accountants
                  & Consultants




www.gkacpa.com                       Independent Auditor's Report on Financial Statements

                           Inspector General, U.S. Agency for International Development, and
                           Board of Directors and the President,
                           United States African Development Foundation:

                           We have audited the accompanying balance sheets of the United States African
                           Development Foundation (USADF) as of September 30, 2011 and 2010, and
                           the related statements of net cost, changes in net position, and budgetary
                           resources (hereinafter referred to as “financial statements”) for the years then
                           ended. These financial statements are the responsibility of USADF’s
                           management. Our responsibility is to express an opinion on these financial
                           statements based on our audits.

                           We conducted our audits in accordance with auditing standards generally
                           accepted in the United States of America; the standards applicable to financial
                           audits contained in Government Auditing Standards, issued by the Comptroller
                           General of the United States; and applicable provisions of Office of
                           Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
                           Financial Statements, as amended. Those standards require that we plan and
                           perform the audits to obtain reasonable assurance about whether the financial
                           statements are free of material misstatement. An audit includes examining, on
                           a test basis, evidence supporting the amounts and disclosures in the financial
                           statements. An audit also includes assessing the accounting principles used
                           and significant estimates made by management, as well as evaluating the
                           overall financial statement presentation. We believe that our audits provide a
                           reasonable basis for our opinion.

                           In our opinion, the financial statements referred to above present fairly, in all
                           material respects, the financial position of USADF as of September 30, 2011,
                           and its net costs, changes in net position, and budgetary resources for the year
                           then ended in conformity with accounting principles generally accepted in the
                           United States of America.

                           The information in the Management Discussion and Analysis is not a required
                           part of the financial statements, but is supplementary information required by
                           accounting principles generally accepted in the United States of America and
  1015 18th Street, NW     OMB Circular A-136, Financial Reporting Requirements.
        Suite 200
 Washington, DC 20036
   Tel: 202-857-1777
   Fax: 202-857-1778

                                                  Member of the American Institute of Certified Public Accountants
We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information.
However, we did not audit this information, and accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 14, 2011, on our consideration of USADF’s internal control over financial
reporting, and on our tests of its compliance with certain provisions of applicable laws,
regulations, and contracts. These reports are an integral part of an audit performed in
accordance with Government Auditing Standards, and should be read in conjunction with this
report in considering the results of our audit.




November 14, 2011




                                           20
                         Certified Public Accountants
                         & Consultants



                                    Independent Auditor's Report on Internal Control over Financial
                                                             Reporting

                               Inspector General, U.S. Agency for International Development, and
                               Board of Directors and the President,
www.gkacpa.com                 United States African Development Foundation:

                               We have audited the balance sheet and the related statements of net cost,
                               changes in net position, and budgetary resources, hereinafter referred to as
                               “financial statements” of the United States African Development Foundation
                               (USADF) as of and for the year ended September 30, 2011, and have issued
                               our report thereon dated November 14, 2011. We conducted our audit in
                               accordance with auditing standards generally accepted in the United States of
                               America; the standards applicable to financial audits contained in Government
                               Auditing Standards, issued by the Comptroller General of the United States;
                               and applicable provisions of Office of Management and Budget Bulletin No.
                               07-04, Audit Requirements for Federal Financial Statements, as amended.

                               In planning and performing our audit, we considered USADF’s internal control
                               over financial reporting by obtaining an understanding of the design
                               effectiveness of USADF’s internal control, determined whether these internal
                               controls had been placed in operation, assessed control risk, and performed
                               tests of controls as a basis for designing our auditing procedures for the
                               purpose of expressing our opinion on the financial statements. We limited our
                               internal control testing to those controls necessary to achieve the objectives
                               described in OMB Bulletin No. 07-04 and Government Auditing Standards.
                               We did not test all internal controls relevant to operating objectives as broadly
                               defined by the Federal Managers’ Financial Integrity Act of 1982, such as
                               those controls relevant to ensuring efficient operations. The objective of our
                               audit was not to provide an opinion on the effectiveness of USADF’s internal
                               control over financial reporting. Consequently, we do not provide an opinion
                               on the effectiveness of USADF’s internal control over financial reporting.

                               Our consideration of the internal control over financial reporting was for the
                               limited purpose described in the preceding paragraph and was not designed to
                               identify all deficiencies in internal control over financial reporting that might
                               be deficiencies, significant deficiencies, or material weaknesses. A deficiency
                               in internal control exists when the design or operation of a control does not
                               allow management or employees, in the normal course of performing their
  1015 18th Street, NW         assigned functions, to prevent or detect and correct misstatements on a timely
        Suite 200              basis.
 Washington, DC 20036
   Tel: 202-857-1777
   Fax: 202-857-1778
                                                                    Member of the American Institute of Certified Public Accountants
A significant deficiency is a deficiency or combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. A material weakness is a deficiency, or a combination of deficiencies, in
internal control, such that there is a reasonable possibility that a material misstatement of the
entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

However, we noted a certain matter discussed in the following paragraph involving the internal
control over financial reporting and its operation that we consider to be a material weakness.
This material weakness, as defined above, is summarized below with further explanations and
USADF’s Management’s response in Exhibit I of this report.

Material Weakness

Internal Control over Financial Reporting was not Effective

During our audit of USADF’s financial statements for FY 2011, we noted instances where
USADF’s internal control over financial reporting did not work effectively. Specifically, we
noted the following:

      Reconciliations between the subsidiary listings and the general ledger on key financial
       accounts were not performed on a regular basis.

      Financial management functions specific to monitoring, analysis, oversight, and
       reconciliations were not adequate.

      Second quarter and year–end financial statements were not produced and submitted
       timely. Although the year- end financials and Performance and Accountability Report
       were presented together on November 9, 2011, the requirement under OMB A-136
       requires this information to be submitted by November 1st of each year.

USADF management’s responses to our finding and recommendations have not been subjected
to the auditing procedures applied in the audit of the financial statements and, accordingly, we do
not express an opinion or provide any form of assurance on the appropriateness of the responses
or the effectiveness of any corrective action described therein.

We also noted other matters involving internal control and its operation that we reported to
management of USADF in a separate letter dated November 14, 2011.

This report is intended solely for the information and use of the Management of USADF, the
Office of Inspector General of the U.S. Agency for International Development, the Government
Accountability Office, OMB, and the U.S. Congress, and is not intended to be, and should not be
used by anyone other than these specified parties. However, this report is a matter of public
record and its distribution is not limited.



November 14, 2011



                                                22
                         Certified Public Accountants
                         & Consultants



                                         Independent Auditor's Report on Compliance with
www.gkacpa.com                                        Laws and Regulations

                             Inspector General, U.S. Agency for International Development, and
                             Board of Directors and the President,
                             United States African Development Foundation:

                             We have audited the balance sheet and the related statements of net cost,
                             changes in net position, and budgetary resources, hereinafter referred to as
                             “financial statements” of the United States African Development Foundation
                             (USADF) as of and for the year ended September 30, 2011, and have issued
                             our report thereon dated November 14, 2011. We conducted our audit in
                             accordance with auditing standards generally accepted in the United States of
                             America; the standards applicable to financial audits contained in Government
                             Auditing Standards, issued by the Comptroller General of the United States;
                             and, the applicable provisions of Office of Management and Budget (OMB)
                             Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
                             amended.

                             The management of USADF is responsible for complying with laws and
                             regulations applicable to USADF. As part of obtaining reasonable assurance
                             about whether USADF’s financial statements are free of material
                             misstatement, we performed tests of its compliance with certain provisions of
                             laws and regulations and contracts, noncompliance with which could have a
                             direct and material effect on the determination of financial statement amounts,
                             and certain provisions of other laws and regulations specified in OMB Bulletin
                             No. 07-04, including certain requirements referred to in Section 803(a) of the
                             Federal Financial Management Improvement Act (FFMIA) of 1996. We
                             limited our tests of compliance to the provisions described in the preceding
                             sentence, and we did not test compliance with all laws, regulations and
                             contracts applicable to USADF. However, our objective was not to provide an
                             opinion on overall compliance with laws, regulations and contracts.
                             Accordingly, we do not express such an opinion.

                             The results of our tests of compliance with laws, regulations and contracts
                             described in the preceding paragraph, exclusive of FFMIA, disclosed no
                             instances of noncompliance that are required to be reported under Government
                             Auditing Standards or OMB Bulletin No. 07-04.
  1015 18th Street, NW
        Suite 200
 Washington, DC 20036
   Tel: 202-857-1777
   Fax: 202-857-1778
                                                                 Member of the American Institute of Certified Public Accountants
Under FFMIA, we are required to report whether USADF’s financial management systems
substantially comply with (1) federal financial management systems requirements (FFMSR),
(2) applicable federal accounting standards, and (3) the United States Government Standard
General Ledger at the transaction level in accordance with FFMIA Section 803(a)
requirements.

The results of our tests disclosed no instances in which USADF’s financial management
systems did not substantially comply with the three requirements discussed in the preceding
paragraph.

This report is intended solely for the information and use of the Management of USADF, the
Office of Inspector General of the U.S. Agency for International Development, the
Government Accountability Office, OMB, and the U.S. Congress, and is not intended to be,
and should not be used by anyone other than these specified parties. However, this report is a
matter of public record and its distribution is not limited.




November 14, 2011




                                                     24
    EXHIBIT 1

MATERIAL WEAKNESS
THIS PAGE INTENTIONALLY LEFT BLANK
                                     MATERIAL WEAKNESS

Internal Control over Financial Reporting was not Effective

During our audit of USADF’s financial statements for FY 2011, we noted instances where USADF’s
internal control over financial reporting did not work effectively. Specifically, we noted the
following:

      Reconciliations between the subsidiary listings and the general ledger on key financial
       accounts were not performed on a regular basis.

      Financial management functions specific to monitoring, analysis, oversight, and
       reconciliations were not adequate.

      Second quarter and year–end financial statements were not produced and submitted timely.
       Although the year- end financials and Performance and Accountability Report were presented
       together on November 9, 2011, the requirement under OMB A-136 requires this information
       to be submitted by November 1st of each year.

The Accountability of Tax Dollars Act of 2002 (ATDA) requires USADF to submit to Congress and
the Director of the Office of Management and Budget (OMB) audited financial statements, as defined
by OMB Bulletin 07-04, as amended, Audit Requirements for Federal Financial Statements.

To be able to produce timely and accurate financial statements, USADF is required to develop a
system to prepare and submit financial statements on a timely basis in accordance with accounting
principles generally accepted in the United States of America. The statements are to result from an
accounting system that is an integral part of an integrated financial management system containing
sufficient structure, effective internal control and reliable data.

During FY 2011, USADF did not have adequate expertise to perform financial management
accounting and reporting. This lack of expertise existed for most part of the year and hence affected
statutory deliverables and delays in issuing audited financial statements.

We acknowledge that USADF was pro-active and contracted with the Administrative Resource
Center of the Bureau of Public Debt (ARC/BPD) based in Parkersburg, W.V., to prepare its FY 2011
year-end financial statements and meet remaining reporting deadlines.

USADF had already signed an Interagency Agreement with ARC/BPD for financial management,
procurement and travel services beginning FY 2012.

Office of Management and Budget (OMB) Circular No. A-123, as revised, Management’s
Responsibility for Internal Control, requires transactions to be promptly recorded, properly classified
and accounted for in order to prepare timely accounts and reliable financial and other reports. The
documentation for transactions, management controls, and other significant events should be clear
and readily available for examination.

Office of Management and Budget (OMB) Circular No. A-136, as amended, Financial Reporting
Requirements, defines the form and content of the financial statements to be prepared and requires

                                                  25
the submission of Performance and Accountability Reports (PAR) to the Office of Management and
Budget (OMB), Government Accountability Office (GAO) and Congress no later than 45 calendar
days after the end of the fiscal year. Draft reports should be provided to OMB by November 1 before
issuing the final report.

By not performing management functions specific to monitoring, analysis, oversight, and
reconciliations, there is the risk that discrepancies may exist but go undetected and uncorrected;
thereby causing the financial information to be misstated. Effective management oversight greatly
increases USADF’s ability to proactively identify and resolve issues that could result in
misstatements in financial accounting and reporting records.

Additionally, there could be delays in statutory deliverables including issuing audited financial
statements.

RECOMMENDATION:

We recommend that USADF management:

1.     Allocate the resources and appropriate skills needed throughout the USADF to meet financial
       recording and reporting responsibilities.

2.     Provide on-going training to USADF employees on federal accounting and reporting
       requirements, to complement the services of the accounting service provider.

MANAGEMENT RESPONSE:

The effective management oversight by ADF Management has enabled it to be fully aware of and to
pro-actively address and remedy shorting comings with financial management and reporting and a
range of other administrative functions even before this audit period began. ADF Management has
been up-grading its finance, budget and other administrative functions for several years. The CFO
was replaced in October 2008 after a gap of several months. The primary position responsible for
budget was re-filled in February, 2010 with an experienced individual with both budget and
accounting backgrounds.

ADF Management recognized problems inherent in a small agency which lacked integrated financial
management, contracting, travel and other administrative systems. Multiple separate systems had
been acquired for different purposes and these required the entering and re-entering of data between
three and five times instead of potentially once in a fully integrated system. These systems were
being serviced and run by different private contractors, federal service providers and ADF
employees.

In order to achieve improvements in services and in order to reduce expenses, ADF Management first
considered re-engineering its business process arrangements in the fall of 2009. These desires and a
review of other available public and private options led ADF Management in March 2010 to initially
approach the Administrative Resource Center of the Bureau of Public Debt, Department of Treasury
located in Parkersburg, WV concerning providing integrated financial management, contract, travel,
human resources, information technology and budget services.

Extensive information concerning ADF services and systems was requested by ARC/BPD. These

                                                26
materials were provided and reviewed during the summer and fall of 2010 before it was decided that
they were interested in ADF as a customer. ADF Management was clear that it wanted to move
forward on a schedule that would implement for October 1, 2011—the beginning of FY 2012. Cost
estimates showed that savings exceeding $1 million or more than ten percent of operating expenses
might be achieved annually.

In the late spring of 2010, it was decided to extend to November 2010 the existing contract for the
external accounting firm which had provided quality accounting services to ADF for a number of
years. ADF undertook to hire a senior federal accountant to be responsible for managing this
function. The three most senior personnel left the external contract before the six month period was
completed. The federal hiring process was slower than optimal and extended through the summer.
ADF hired a federal accountant with over 30 years of experience, but it was not possible to achieve
an overlap with the departing external senior accountant. In order to assure appropriate training,
ADF Management contracted for 80 hours of direct training by the exiting accountant for the arriving
accountant. This training, which took place mostly in November and early December 2010, proved
less than sufficient.

The FY 2011 first quarter financial reports were completed and posted on time by ADF budget staff.
ADF Management retained several junior accounting staff from the external contractor. In January
2011, ADF Management entered a transition Inter-Agency Agreement (IAA) with ARC/BPD in order
to complete all the systems and data shifts and training necessary to implement integrated finance,
contract and travel services. ADF negotiated another IAA for full human resources and personnel
security services with the National Business Center of the Department of Interior located in Colorado
also to begin October 1, 2011. Information technology services remain with ADF.

Throughout the audit, beginning with the Entrance Conference on March 10, 2011, and at subsequent
audit meetings, ADF Management was fully transparent about the transition process it was
undertaking and with the challenges and problems related to the audit function. ADF was also
straight forward in keeping the Auditors apprised of the issues it was addressing with the Treasury
related to providing timely quarterly reporting. Simultaneous transition challenges, financial
reporting requirements and audit requests led to delays in presenting requested audit documentation.

It became apparent that the accounting function was not performing up to expectations when errors
were discovered by ADF Management in the postings to the General Ledger and to Quick Books and
when the second quarter financial reports were not completed in a timely manner. ADF budget staff
completed and posted this report. ADF Management acted to address this situation by re-hiring two
of the senior accounting staff who had previously left the external accounting services contract.
These individuals undertook identifying and correcting the General Ledger and Quick Books postings
and the more senior undertook completing the third quarter financial reporting—a task that he had
carried out for ADF over the prior four years.

ADF Management, still not satisfied with the performance of the accounting function, in early June
approached ARC/BPD to support ADF in completing the fourth quarter and end of fiscal year
financial reporting for the Foundation. This additional IAA was negotiated when BPD agreed to take
on this additional role. The ADF federal staff accountant voluntarily retired at the end of September,
2011. ADF Management retained one of the two more senior external accounting staff to replace one
of the less experienced. ADF resolved the issues with Treasury to provide for second and third
quarter financial reporting and met all the fourth quarter and end of FY 2011 financial reporting
requirements of the Department of Treasury and the Office of Management and Budget in a timely

                                                 27
and accurate manner. ADF Management has retained some of the external accounting staff through
mid-December to assist in the full transition and implementation to ARC/BPD.

ADF Management has had satisfactory annual audits for the past several years. During this FY 2011
Annual Audit period, the systems of internal control and financial management did not change, nor
did the overall number of personnel carrying out these functions. USADF maintained adequate
accounting systems that provided for: (1) complete disclosure of the financial results of the activities
of the agency, (2) adequate financial information for agency management and for formulation of and
execution of the budget, and for (3) effective controls over revenue, expenditures, funds, property,
and other assets. However, this period of major transition to outsourced services has included
significant personnel turnover in the accounting, contracting and other functions. ADF Management
has quickly recognized and actively addressed problems identified in the accounting function and
believes that ARC/BPD provision of these services in the future will remedy most of the FY 2011
shortcomings. Even with changes in staffing described above, at no time was there not funds control.

USADF Management accepts the above two recommendations related to the Internal Control over
Financial Reporting Audit Finding. USADF Management continues to address the personnel
turnover in the accounting, contracting and other functions which has occurred during this major
transition in order to ensure sufficiency of appropriately skilled resources to meet financial
management and reporting requirements. ADF Management also agrees that there should be on-going
training for remaining USADF financial management employees regarding federal accounting and
reporting requirements, to complement the services of the financial management services
provider. ADF Management expects that, with the new financial management services provider and
with the reduced demands of the transition process, financial reporting and services, and audit
responsiveness will improve in FY 2012.




                                                  28
          SECTION III

FINANCIAL STATEMENTS AND NOTES
THIS PAGE INTENTIONALLY LEFT BLANK
                                     AFRICAN DEVELOPMENT FOUNDATION
                                              BALANCE SHEET
                                      AS OF SEPTEMBER 30, 2011 AND 2010
                                                 (In Dollars)

                                                                  2011             2010
Assets:
  Intra-governmental
     Fund Balance With Treasury (Note 2)                     $    32,342,219   $   34,210,689
  Total Intra-governmental                                        32,342,219       34,210,689

  Cash, and Other Monetary Assets (Note 3)                         6,251,959        9,257,024
  Accounts Receivable, Net (Note 4)                                      870                 -
  Property, Equipment, and Software, Net (Note 5)                    200,318          394,569
  Advances and Prepayments (Note 6)                                3,537,060        2,053,348
Total Assets                                                 $    42,332,426   $   45,915,630


Liabilities:
  Intra-governmental
     Other (Note 8)                                          $       58,896    $             -
  Total Intra-governmental                                           58,896                  -

  Accounts Payable                                                         -          70,220
  Other (Note 8)                                                    452,120          459,554
Total Liabilities                                            $      511,016    $     529,774

Net Position:
  Unexpended Appropriations                                  $    35,085,681   $   35,666,873
  Cumulative Results of Operations                                 6,735,729        9,718,983
  Total Net Position                                         $    41,821,410   $   45,385,856
Total Liabilities and Net Position                           $    42,332,426   $   45,915,630




                                                    29
                             AFRICAN DEVELOPMENT FOUNDATION
                                   STATEMENT OF NET COST
                    FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2011 AND 2010
                                          (In Dollars)



                                                       2011                    2010
Program Costs:
  Foreign Grant Program:
    Gross Costs (Note 11)                       $   23,449,408         $     24,569,237
    Less: Earned Revenue (Note 11)                    (296,484)                       -
    Net Program Costs                           $   23,152,924         $     24,569,237


Costs Not Assigned To Programs                  $    9,271,815         $      9,611,359
Net Cost of Operations                          $   32,424,739         $     34,180,596




                                           30
                          AFRICAN DEVELOPMENT FOUNDATION
                        STATEMENT OF CHANGES IN NET POSITION
                 FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2011 AND 2010
                                       (In Dollars)


                                                        2011                   2010

Cumulative Results of Operations:
Beginning Balances                                  $      9,718,983      $     9,700,584
Adjustments

  Changes In Accounting Principles                        (201,666)                      -

Beginning Balances, as Adjusted                           9,517,317             9,700,584

Budgetary Financing Sources:

  Appropriations Used                                    29,141,865            29,214,034
  Donations and Forfeitures of Cash and Cash
Equivalents                                                 206,705             4,657,568

Other Financing Sources (Non-Exchange):

  Imputed Financing Sources (Note 12)                       294,581               327,393

Total Financing Sources                                  29,643,151            34,198,995

Net Cost of Operations                                  (32,424,739)          (34,180,596)

Net Change                                               (2,781,588)               18,399
Cumulative Results of Operations                    $      6,735,729      $     9,718,983

Unexpended Appropriations:
Beginning Balances                                  $    35,666,873       $    37,350,742

Budgetary Financing Sources:

  Appropriations Received                                29,441,000            30,000,000

  Other Adjustments                                       (880,327)            (2,469,835)

  Appropriations Used                                   (29,141,865)          (29,214,034)

Total Budgetary Financing Sources                         (581,192)            (1,683,869)
Total Unexpended Appropriations                     $    35,085,681       $     35,666,873
Net Position                                        $    41,821,410       $     45,385,856




                                               31
                               AFRICAN DEVELOPMENT FOUNDATION
                              STATEMENT OF BUDGETARY RESOURCES
                      FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2011 AND 2010
                                            (In Dollars)



                                                                2011                2010
Budgetary Resources:
Unobligated Balance Brought Forward, October 1             $   11,489,316      $   10,865,481
Recoveries of Prior Year Unpaid Obligations                       210,693           4,269,971
Budget Authority
  Appropriation                                                29,721,232          34,191,859
Permanently Not Available                                        (880,327)          (2,469,835)
Total Budgetary Resources                                  $   40,540,914      $   46,857,476

Status of Budgetary Resources:
Obligations Incurred (Note 14)
  Direct                                                   $   30,075,458      $   35,368,160
  Subtotal                                                     30,075,458          35,368,160
Unobligated Balance
  Apportioned                                                   5,244,083           6,739,599
  Exempt From Apportionment                                     2,232,652           3,450,613
  Subtotal                                                      7,476,735          10,190,212
Unobligated Balance Not Available                               2,988,721           1,299,104
Total Status of Budgetary Resources                        $   40,540,914      $   46,857,476

Change in Obligated Balance:
Obligated Balance, Net
  Unpaid Obligations, Brought Forward, October 1           $    31,978,397     $    34,024,990
Obligations Incurred Net                                        30,075,458          35,368,160
Gross Outlays                                                  (33,714,440)        (33,144,782)
Recoveries of Prior Year Unpaid
  Obligations, Actual                                            (210,693)          (4,269,971)
Total, Unpaid Obligated Balance, Net, End of Period        $   28,128,722      $   31,978,397

Net Outlays:
  Gross Outlays                                            $   33,714,440      $   33,144,782
Net Outlays                                                $   33,714,440      $   33,144,782




                                                      32
                   AFRICAN DEVELOPMENT FOUNDATION
                   NOTES TO THE FINANCIAL STATEMENTS
                           As of September 30, 2011
           NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A. Reporting Entity

The United States African Development Foundation ("USADF" or "the Foundation") is a
government-owned corporation established by Congress under the African Development
Foundation Act in 1980 and began operations in 1984. The Foundation has a unique mission
among U.S. foreign assistance programs, by-passing layers of inefficiencies and working directly
with the neediest communities in Africa. The Foundation uses a participatory approach to
actively engage marginalized local community groups or enterprises in the design and
implementation of development projects. This approach ensures these programs are distinctively
African initiated and led, resulting in outcomes that best address the real needs of the community.
Together, the focus on underserved populations and participatory development ensure greater
equity and ownership in the development process. Project success and long term impact is
further enhanced through USADF efforts to establish a network of partner organizations, local
non-governmental organizations, that provide project design, implementation and management
support to USADF grant recipients. The African Development Foundation reporting entity is
comprised of Trust Funds and General Funds.


The Foundation maintains a Trust Fund with the U.S. Treasury in accordance with its gift
authority. Trust Funds are credited with receipts that are generated by terms of a trust agreement
or statute.


General Funds are accounts used to record financial transactions arising under congressional
appropriations or other authorizations to spend general revenues. The Foundation provides
grants and program support to community groups and small enterprises that benefit under served
and marginalized groups in Africa.

The Foundation has rights and ownership of all assets reported in these financial statements. The
Foundation does not possess any non-entity assets.

B. Basis of Presentation

The financial statements have been prepared to report the financial position, net cost of
operations, changes in net position, and the status and availability of budgetary resources of the
Foundation. The statements are a requirement of the Chief Financial Officers Act of 1990, the
Government Management Reform Act of 1994 and the Accountability of Tax Dollars Act of
2002. They have been prepared from, and are fully supported by, the books and records of the
Foundation in accordance with the hierarchy of accounting principles generally accepted in the

                                                33
United States of America, standards approved by the Federal Accounting Standards Advisory
Board (FASAB), OMB Circular A-136, Financial Reporting Requirements and the Foundation's
accounting policies which are summarized in this note. These statements, with the exception of
the Statement of Budgetary Resources, are different from financial management reports, which
are also prepared pursuant to OMB directives that are used to monitor and control the
Foundation's use of budgetary resources. The financial statements and associated notes are
presented on a comparative basis. Unless specified otherwise, all amounts are presented in
dollars.

C. Budgets and Budgetary Accounting

Congress usually enacts appropriations to permit the Foundation to incur obligations for specified
purposes. In fiscal years 2011 and 2010, the Foundation was accountable for General Fund
appropriations and Trust Funds. The Foundation recognizes budgetary resources as assets when
cash (funds held by the U.S. Treasury) is made available through the Department of Treasury
General Fund warrants.

D. Basis of Accounting

Transactions are recorded on both an accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned, and expenses are recognized when a
liability is incurred, without regard to receipt or payment of cash. Budgetary accounting
facilitates compliance with legal requirements on the use of federal funds.

E. Revenues & Other Financing Sources

Congress enacts multi-year and no-year appropriations to be used, within statutory limits, for
operating, capital and grant expenditures. The Foundation's grant program also receives
additional amounts through donations from the private sector.
Appropriations are recognized as a financing source when expended. Revenues from service fees
associated with reimbursable agreements are recognized concurrently with the recognition of
accrued expenditures for performing the services.

The Foundation recognizes as an imputed financing source the amount of accrued pension and
post-retirement benefit expenses for current employees paid on our behalf by the Office of
Personnel Management (OPM).

F. Taxes

The Foundation, as a Federal entity, is not subject to Federal, State, or local income taxes, and
accordingly, no provision for income taxes has been recorded in the accompanying financial
statements.




                                               34
G. Fund Balance with Treasury and Cash

The U.S. Treasury processes cash receipts and disbursements. Funds held at the Treasury are
available to pay agency liabilities. In addition, commercial, noninterest bearing accounts (in
local currencies) are maintained with Bank Gaborone of Botswana, Citibank Nigeria, and Banco
Comercial do Atlantico in Cape Verde, Standard Chartered Bank in Ghana, Ecobank in Mali,
Citibank and Zenith Bank in Nigeria, First National Bank of Swaziland in Swaziland, Standard
Chartered Bank in Zambia, EcoBank Guinea, EcoBank Benin, Standard Chartered Uganda,
Banque Commerciale du Rwanda and National Bank of Malawi to process grant funds for those
countries. Governments with whom USADF has entered Strategic Partnerships deposit donations
into these accounts. In general, grants are funded equally with appropriated funds and donated
funds. USADF controls all disbursements from these accounts.

H. Foreign Currencies

The Foundation awards grants to private organizations in Africa. Most of the grants are
denominated in local currencies to facilitate accounting by the recipient organizations.
Depending on the nature of the transaction, foreign currencies are translated into dollars at the
actual exchange rate received by the Foundation when the transaction is made. The value of
obligations incurred by the Foundation in foreign currencies varies from time to time depending
on the current exchange rate. The Foundation adjusts the value of its obligations at the end of
each quarter during the year to reflect the prevailing exchange rates. Downward adjustments to
prior year obligations based on favorable foreign currency exchange rates will be made available
for obligation if the adjustment occurs within the Foundation's authorized two year funding
period. Upward adjustment to prior year obligations based on unfavorable foreign currency
exchange rate with the U.S. dollar will be made from funds made available for upward
adjustments, if any, or from currently available funds.

I. Grant Accounting

The Foundation disburses funds in advance to grantees to cover their projected expenses over a
three-month period. Grantees report to the Foundation periodically on the actual utilization of
these funds. For purposes of these financial statements, the Foundation treats disbursements to
grantees as advances. The advance is reduced when the grantee reports expenditures. The total
grant advance is the total amount disbursed to the grantee less the total expended for open (non-
expired) grants as of the reporting date. In order to ensure timeliness in reporting grantee
expenditures, the Foundation will use estimates to calculate the last quarter's grantee expenditures
based on historical expenditure trends since 1996 and disbursement activity funding that quarter's
activity. The actual expenditures adjustments will be reported in the following quarter's financial
statements. Once a grant has closed (expired or cancelled) any excess disbursement is
reclassified as an Accounts Receivable.

J. Accounts Receivable

Accounts receivable consists of amounts owed to the Foundation by other Federal agencies and
the general public. Amounts due from Federal agencies are considered fully collectible.

                                                35
Accounts receivable from the public include reimbursements from employees. An allowance for
uncollectible accounts receivable from the public is established when, based upon a review of
outstanding accounts and the failure of all collection efforts, management determines that
collection is unlikely to occur considering the debtor’s ability to pay.

K. Property, Equipment, and Software

Property, equipment and software represent furniture, fixtures, equipment, and information
technology hardware and software which are recorded at original acquisition cost and are
depreciated or amortized using the straight-line method over their estimated useful lives. Major
alterations and renovations are capitalized, while maintenance and repair costs are expensed as
incurred. USADF's capitalization threshold is $20,000 for individual purchases. Vehicle
purchases will automatically be capitalized regardless of the cost. Applicable standard
governmental guidelines regulate the disposal and convertibility of agency property, equipment,
and software. The useful life classifications for capitalized assets are as follows:


                                                       Useful Life
                           Description                  (years)

                           Leasehold
                           Improvements                      5
                           Office Furniture                  5
                           Computer Equipment                5
                           Office Equipment                  5
                           Software                          5

L. Advances and Prepaid Charges

Advance payments are generally prohibited by law. There are exceptions, such as some
reimbursable agreements, subscriptions and payments to contractors and employees. Advances
may be given to USADF employees for official travel. Payments made in advance of the receipt
of goods and services are recorded as advances or prepaid charges at the time of prepayment and
recognized as expenses when the related goods and services are received.

M. Liabilities

Liabilities represent the amount of monies or other resources likely to be paid by the USADF as a
result of transactions or events that have already occurred. No liability can be paid, however,
absent an appropriation or other funding. Liabilities for which an appropriation has not been
enacted or other funds received are, therefore, classified as not covered by budgetary resources.
There is no certainty that the appropriation will be enacted. Additionally, the Government, acting
in its sovereign capacity, can abrogate liabilities.




                                               36
N. Accounts Payable

Accounts payable consists primarily of amounts owed to nonfederal entities, primarily
commercial vendors, for goods and services received by USADF.

O. Annual, Sick, and Other Leave

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. The balance
in the accrued leave account is adjusted to reflect current pay rates. Liabilities associated with
other types of vested leave, including compensatory, restored leave, and sick leave in certain
circumstances, are accrued at year-end, based on latest pay rates and unused hours of leave.
Funding will be obtained from future financing sources to the extent that current or prior year
appropriations are not available to fund annual and other types of vested leave earned but not
taken. Non-vested leave is expensed when used. Any liability for sick leave that is accrued but
not taken by a Civil Service Retirement System (CSRS)-covered employee is transferred to
OPM upon the retirement of that individual. Credit is given for sick leave balances in the
computation of annuities upon the retirement of Federal Employees Retirement System (FERS)-
covered employees effective at 50% beginning FY2010 and 100% in 2014.

P. Accrued and Actuarial Workers’ Compensation

The Federal Employees' Compensation Act (FECA) administered by the U.S. Department of
Labor (DOL) addresses all claims brought by the USADF employees for on-the-job injuries. The
DOL bills each agency annually as its claims are paid, but payment of these bills is deferred for
two years to allow for funding through the budget process. Similarly, employees that the
USADF terminates without cause may receive unemployment compensation benefits under the
unemployment insurance program also administered by the DOL, which bills each agency
quarterly for paid claims. Future appropriations will be used for the reimbursement to DOL. The
liability consists of (1) the net present value of estimated future payments calculated by the DOL,
and (2) the unreimbursed cost paid by DOL for compensation to recipients under the FECA.


Q. Retirement Plans

USADF employees participate in either the CSRS or the FERS. The employees who participate
in CSRS are beneficiaries of USADF's matching contribution, equal to seven percent of pay,
distributed to their annuity account in the Civil Service Retirement and Disability Fund.

Prior to December 31, 1983, all employees were covered under the CSRS program. From
January 1, 1984 through December 31, 1986, employees had the option of remaining under
CSRS or joining FERS and Social Security. Employees hired as of January 1, 1987 are
automatically covered by the FERS program. FERS offers a savings plan to which USADF
automatically contributes one percent of pay and matches any employee contribution up to an
additional four percent of pay. For FERS participants, USADF also contributes the employer’s
matching share of Social Security.

                                                37
FERS employees and certain CSRS reinstatement employees are eligible to participate in the
Social Security program after retirement. In these instances, USADF remits the employer’s share
of the required contribution.


USADF recognizes the imputed cost of pension and other retirement benefits during the
employees’ active years of service. OPM actuaries determine pension cost factors by calculating
the value of pension benefits expected to be paid in the future and communicate these factors to
the USADF for current period expense reporting. OPM also provides information regarding the
full cost of health and life insurance benefits. The USADF recognized the offsetting revenue as
imputed financing sources to the extent these expenses will be paid by OPM.

The USADF does not report on its financial statements information pertaining to the retirement
plans covering its employees. Reporting amounts such as plan assets, accumulated plan benefits,
and related unfunded liabilities, if any, is the responsibility of the OPM.

R. Other Post-Employment Benefits

USADF employees eligible to participate in the Federal Employees' Health Benefits Plan
(FEHBP) and the Federal Employees' Group Life Insurance Program (FEGLIP) may continue to
participate in these programs after their retirement. The OPM has provided the USADF with
certain cost factors that estimate the true cost of providing the post-retirement benefit to current
employees. The USADF recognizes a current cost for these and Other Retirement Benefits
(ORB) at the time the employee's services are rendered. The ORB expense is financed by OPM,
and offset by the USADF through the recognition of an imputed financing source.

S. Use of Estimates

The preparation of the accompanying financial statements in accordance with generally accepted
accounting principles requires management to make certain estimates and assumptions that affect
the reported amounts of assets, liabilities, revenues, and expenses, and in the note disclosures.
Actual results could differ from those estimates.

T. Imputed Costs/Financing Sources

Federal Government entities often receive goods and services from other Federal Government
entities without reimbursing the providing entity for all the related costs. In addition, Federal
Government entities also incur costs that are paid in total or in part by other entities. An imputed
financing source is recognized by the receiving entity for costs that are paid by other entities.
The USADF recognized imputed costs and financing sources in fiscal years 2011 and 2010 to the
extent directed by OMB.




                                                38
U. Expired Accounts and Cancelled Authority

Unless otherwise specified by law, annual authority expires for incurring new obligations at the
beginning of the subsequent fiscal year. The account in which the annual authority is placed is
called the expired account. For five fiscal years, the expired account is available for expenditure
to liquidate valid obligations incurred during the unexpired period. Adjustments are allowed to
increase or decrease valid obligations incurred during the unexpired period but not previously
reported. At the end of the fifth expired year, the expired account is cancelled.

V. Reclassification
Certain fiscal year 2010 balances may have been reclassified, retitled, or combined with other
financial statement line items for consistency with the current year presentation.


NOTE 2. FUND BALANCE WITH TREASURY

Fund balance with Treasury account balances as of September 30, 2011 and 2010 were as
follows:


                                                         2011                  2010
Fund Balance s:
Trust Funds                                          $       36,154        $        36,154
Appropriated Funds                                       32,306,065             34,174,535
Total                                                $   32,342,219        $    34,210,689

Status of Fund Balance with Treasury:
Unobligated Balance
   Available                                         $    5,244,083        $     6,739,599
   Unavailable                                            2,988,721              1,299,104
   Exempt from Apportionment                                 36,154                 36,154
Obligated Balance Not Yet Disbursed                      24,073,261             26,135,832
Total                                                $   32,342,219        $    34,210,689


The available unobligated fund balances represent the current-period amount available for
obligation or commitment. At the start of the next fiscal year, this amount will become part of
the unavailable balance as described in the following paragraph.

The unavailable unobligated fund balances represent the amount of appropriations for which the
period of availability for obligation has expired. These balances are available for upward
adjustments of obligations incurred only during the period for which the appropriation was
available for obligation or for paying claims attributable to the appropriations.


                                                39
The obligated balance not yet disbursed includes accounts payable (if any), accrued expenses,
and undelivered orders that have reduced unexpended appropriations but have not yet decreased
the cash balance on hand.

NOTE 3. CASH AND OTHER MONETARY ASSETS

USADF's funds held outside the Treasury consist of local currency donations made by African
governments and certain private sector entities for program purposes in each respective country.


Cash and other monetary assets balances as of September 30, 2011 and 2010, totaled $6,251,959
and $9,257,024, respectively. The comparative balances are summarized below:


                                                   2011                    2010
EcoBank Mali                                 $       1,238,845        $      1,436,735
Stanbic Bank of Uganda                                 901,037               1,504,059
Banque Commerciale du Rwanda                           892,145               1,392,865
Bank Gaborone of Botswana                              751,392                 989,995
EcoBank Benin                                          700,646               1,179,687
EcoBank Senegal                                        537,694                 841,039
Cape Verde                                             342,425                 478,177
EcoBank Guinea                                         287,432                 287,432
Zenith Bank Nigeria-Kaduna                             254,025                 410,794
Zenith Bank Nigeria-Kano                               152,284                 298,125
National Bank of Malawi                                 62,476                 134,766
Standard Chartered Ghana                                31,283                 150,116
First National Bank Swaziland                           36,219                  89,178
Citibank Nigeria                                        33,473                  33,473
Standard Chartered Zambia                               30,583                  30,583
Total Funds Held Outside Treasury            $        6,251,959       $       9,257,024




                                              40
NOTE 4. ACCOUNTS RECEIVABLE

       Accounts receivable balances as of September 30, 2011 and 2010, were as follows:


                                                        2011                  2010
With the Public
 Accounts Receivable                                $      521,573        $      877,785
 Allowance                                                (520,703)             (877,785)
Total Public Accounts Receivable                    $          870        $            -
Total Accounts Receivable                           $          870        $            -

The accounts receivable is made up of travel advances that were overpaid and also includes
terminated grants. Historical experience has indicated that the majority of the receivables will
not be collectible.

Accounts receivable from the public are shown net of allowances for uncollectible amounts of
$870 and $0, as of September 30, 2011 and 2010, respectively.

NOTE 5. PROPERTY, EQUIPMENT, AND SOFTWARE

Schedule of Property, Equipment, and Software as of September 30, 2011


                                                    Accumulated
                              Acquisition           Amortization/         Net Book
Major Class                     Cost                De pre ciation         Value
Furniture & Equipment        $     914,359          $      714,041      $     200,318
Total                        $     914,359          $      714,041      $     200,318


Schedule of Property, Equipment, and Software as of September 30, 2010


                                                     Accumulated
                                Acquisition          Amortization/          Net Book
Major Class                        Cost              Depreciation            Value
Furniture & Equipment          $   1,402,635         $   1,008,066        $     394,569
Total                          $   1,402,635         $   1,008,066        $     394,569


In FY2011, the Foundation changed accounting principles for capitalizing property, equipment,
and software. The threshold going forward for purchases that meet the criteria and definition of a
capitalized asset per FASB SFFAS will be $20,000 for single item purchases. Vehicle purchases
will automatically be capitalized regardless of the cost. During FY2011, purchases that were
                                               41
previously being capitalized but no longer meet the new threshold were written off as a prior
period adjustment due to a change in accounting principle.

NOTE 6. ADVANCES AND PREPAYMENTS

Other assets account balances as of September 30, 2011 and 2010, were as follows:

                                                                2011                    2010
 With the Public
  Grant Advances                                          $     3,537,060          $     2,053,348
 Total Public Other Assets                                $     3,537,060          $     2,053,348




NOTE 7. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

The liabilities for USADF as of September 30, 2011 and 2010 include liabilities not covered by
budgetary resources. Congressional action is needed before budgetary resources can be provided.
Although future appropriations to fund these liabilities are likely and anticipated, it is not certain
that appropriations will be enacted to fund these liabilities.


                                                              2011              2010
Intragovernmental – FECA                             $            2,345     $            -
Intragovernmental – Unemployment Insurance                        9,858                  -
Unfunded Leave                                                  284,495            292,277
Total Liabilities Not Covered by Budgetary Resources $          296,698     $      292,277
Total Liabilities Covered by Budgetary Resources                214,318            237,497
Total Liabilities                                    $          511,016     $      529,774


FECA and the Unemployment Insurance liabilities represent the unfunded liability for actual
workers compensation claims and unemployment benefits paid on USADF's behalf and payable
to the DOL.


Unfunded leave represents a liability for earned leave and is reduced when leave is taken. The
balance in the accrued annual leave account is reviewed quarterly and adjusted as needed to
accurately reflect the liability at current pay rates and leave balances. Accrued annual leave is
paid from future funding sources and, accordingly, is reflected as a liability not covered by
budgetary resources. Sick and other leave is expensed as taken.




                                                 42
NOTE 8. OTHER LIABILITIES


Other liabilities account balances as of September 30, 2011 and 2010 were as follows:

                                                       2011                 2010
Intragovernmental
  FECA Liability                          $                2,345    $              -
  Unemployment Insurance Liability                         9,858                   -
  Payroll Taxes Payable                                   46,693                   -
Total Intragovernmental Other Liabilities $               58,896    $              -

With the Public
 Accrued Funded Payroll and Leave                $       167,625    $        167,277
 Unfunded Leave                                          284,495             292,277
Total Public Other Liabilities                   $       452,120    $        459,554


NOTE 9. LEASES

Operating Leases

USADF occupies office space under a lease agreement that is accounted for as an operating lease.
The lease term is for a period of ten years and commenced on May 1, 2008 and expires on April
30, 2018. Lease payments are increased annually based on the adjustments for operating cost and
real estate tax escalations. Below is a schedule of future payments for the term of the lease.


Ye ar                                Date s                                  Amount
Year 4                        October 1, 2011 - April 30, 2012          $        439,006
Year 5                           May 1, 2012 - April 30, 2013                    771,430
Year 6                           May 1, 2013 - April 30, 2014                    806,766
Year 7                           May 1, 2014 - April 30, 2015                    826,868
Year 8                           May 1, 2015 - April 30, 2016                    847,599
Year 9                           May 1, 2016 - April 30, 2017                    868,801
Year 10                          May 1, 2017 - April 30, 2018                    890,474
Total Future Payments                                                   $      5,450,944


The operating lease amount does not include estimated payments for leases with annual renewal
options. USADF enters into year-to-year leases in the countries with established Country
Representative Offices.



                                                 43
NOTE 10. CONTINGENT LIABILITIES

USADF records commitments and contingent liabilities for legal cases in which payment has
been deemed probable and for which the amount of potential liability has been estimated. There
were no contingent liabilities as of September 30, 2011. However, the USADF is a party in
various administrative legal actions and claims brought by or against it. According to the
Foundation's legal counsel, the likelihood of unfavorable outcomes for all these legal actions and
claims is remote. In the opinion of the Foundation's management, the ultimate resolution of these
proceedings, actions, and claims will not materially affect the financial position or results of
operations of the Foundation.

NOTE 11. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intra-governmental costs and intra-governmental exchange revenue represent goods and services
exchange transactions made between two reporting entities within the Federal government, and
are in contrast to those with non-federal entities (the public). Such costs and revenue are
summarized as follows:


                                                            2011              2010
Grant Program
 Public Costs                                       $       23,449,408    $   24,569,237
   Total Program Costs                                      23,449,408        24,569,237
     Public Earned Revenue                                    (296,484)                -
   Net Program Costs                                        23,152,924        24,569,237

Costs Not Assigned To Programs                               9,271,815         9,611,359
Total Net Cost                                      $       32,424,739    $   34,180,596


NOTE 12. IMPUTED FINANCING SOURCES

USADF recognizes as imputed financing the amount of accrued pension and post-retirement
benefit expenses for current employees. The assets and liabilities associated with such benefits
are the responsibility of the administering agency, OPM. For the fiscal years ended September
30, 2011 and 2010, respectively, imputed financing was as follows:


                                                             2011             2010
Office of Personnel Management                          $      294,581    $     327,393
Total Imputed Financing Sources                         $      294,581    $     327,393




                                               44
NOTE 13. BUDGETARY RESOURCE COMPARISONS TO THE BUDGET OF THE
UNITED STATES GOVERNMENT

The President’s Budget that will include FY11 actual budgetary execution information has not
yet been published. The President’s Budget is scheduled for publication in February 2012 and
can be found at the OMB Web site: http://www.whitehouse.gov/omb/. The 2012 Budget of the
United States Government, with the "Actual" column completed for 2010, has been reconciled to
the Statement of Budgetary Resources and there were no material differences.


NOTE 14. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED


Obligations incurred and reported in the Statement of Budgetary Resources in 2011 consisted of
the following:


                                                                            2011
Direct Obligations, Category A                                         $     8,781,494
Direct Obligations, Category B                                              21,293,964
Total Obligations Incurred                                             $    30,075,458

Category A apportionments distribute budgetary resources by fiscal quarters.

Category B apportionments typically distribute budgetary resources by activities, projects,
objects or a combination of these categories.


NOTE15. UNDELIVERED ORDERS AT THE END OF THE PERIOD

Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, states that
the amount of budgetary resources obligated for undelivered orders at the end of the period
should be disclosed. For the fiscal years ended September 30, 2011 and 2010, undelivered orders
amounted to the following:

                                                      2011                     2010
Undelivered Orders                               $     31,451,463       $       33,794,249
Total Undelivered Orders                         $     31,451,463       $       33,794,249




\

                                               45
NOTE 16. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET


USADF has reconciled its budgetary obligations and non-budgetary resources available to its net
cost of operations.

                                                                                 2011                 2010
Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations Incurred                                                       $   30,075,458       $   35,368,160
  Spending Authority From Offsetting Collections and Recoveries                    (210,693)          (4,269,971)
  Obligations Net of Offsetting Collections and Recoveries                       29,864,765           31,098,189
  Offsetting Receipts                                                                     -                    -
  Net Obligations                                                                29,864,765           31,098,189
Other Resources
  Imputed Financing From Costs Absorbed By Others                                   294,581              327,393
  Other Resources                                                                         -              465,709
  Net Other Resources Used to Finance Activities                                    294,581              793,102
Total Resources Used to Finance Activities                                       30,159,346           31,891,291

Resources Used to Finance Items Not Part of the Net Cost of Operations:
  Change In Budgetary Resources Obligated For Goods,
    Services and Benefits Ordered But Not Yet Provided                            2,330,017            2,102,379
  Resources That Fund Expenses Recognized In Prior Periods                           (7,783)              (7,480)
  Budgetary Offsetting Collections and Receipts That Do
    Not Affect Net Cost of Operations
    Other                                                                           206,705                    -
  Resources That Finance the Acquisition of Assets                                 (194,576)                   -
  Other Resources or Adjustments to Net Obligated Resources
    That Do Not Affect Net Cost of Operations                                       (73,527)                   -
  Total Resources Used to Finance Items Not Part of Net Cost of Operations        2,260,836            2,094,899
Total Resources Used to Finance the Net Cost of Operations                       32,420,182           33,986,190

Components of the Net Cost of Operations That Will Not Require or
Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods
  Increase In Annual Leave Liability                                                     -               (26,685)
  Other                                                                             12,202                     -
  Total Components of Net Cost of Operations That Will Require or
    Generate Resources In Future Periods                                            12,202               (26,685)
Components Not Requiring or Generating Resources
  Depreciation and Amortization                                                     150,008             221,091
  Revaluation of Assets or Liabilities                                             (156,783)                  -
  Other                                                                                (870)                  -
  Total Components of Net Cost of Operations That Will Not Require or
    Generate Resources                                                                  (7,645)         221,091
Total Components of Net Cost of Operations That Will Not Require or
  Generate Resources In The Current Period                                            4,557              194,406
Net Cost of Operations                                                       $   32,424,739       $   34,180,596




                                                              46
